No. 19-1328

 

IN THE

Supreme Court of the Anited States

UNITED STATES DEPARTMENT OF JUSTICE,

Petitioner,
v.

COMMITTEE ON THE JUDICIARY OF THE
UNITED STATES HOUSE OF REPRESENTATIVES,

Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

BRIEF FOR THE RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,741 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 14, 2020.

 

Wilson-Epes Printing Co., Inc.
